U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

David Matthews v. United States,
S.Ct. No. 20-5584

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
28, 2020, and placed on the docket on September 3, 2020. The government’s response is due on
October 5, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 4, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5584
MATTHEWS, DAVID
USA

TAYLOR WILLIS EDWARDS BROWN
FEDERAL PUBLIC DEFENDER
PO BOX 17743
FORT WORTH, TX 76102
TAYLOR_W_BROWN@FD.ORG

